NO: 19-1245

SAMUEL KWUSHUE, Petitioner,
V.
UNITED STATES OF AMERICA, Respondent

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR
REHEARING in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in Century Schoolbook 12 point for the
text and 10 point for the footnotes, and this brief contains 1204 words, excluding the
parts that are exempted by Supreme Court Rule 33.1(d), as needed.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 10, 2020

Samuel Kwushue
6001 Kahiti Trc,
Union City, GA 30291

